                                                   NSF OIG Audit Report No. OIG-08-6-003


Summary of Audit Results

DCAA determined that two of the six FY 2006 indirect cost rates that WHOI proposed were
not acceptable because xxxxxxx of questioned costs were identified in the FY 2006 indirect
cost pools. A carry forward method is used annually to adjust initial estimated indirect cost
rates to consider both actual indirect cost rates and questioned amounts identified in the
indirect cost pools. Rather than provide an adjusted claimed cost proposal for the closed FY,
WHOI carries forward any net indirect cost adjustments and applies those adjustments in the
calculations used to determine the following year’s indirect cost rates accordingly.
Specifically, DCAA questioned xxxxxxx of WHOI’s FY 2006 indirect costs for Employee
Benefits-Regular Expenses Pool and General and Administrative Pool as shown below in
Note 1, “Results of Review of Indirect Costs.” The questioned indirect costs affect the 2006
carry forward amounts thereby reducing indirect costs billed to WHOI’s customers in FY
2007 by xxxxxxx and specifically to NSF by approximately xxxxxxx as explained and shown
below in note 2, “Determination of Carry forward Amounts.”

1. Results of Review of Indirect Costs

The DCAA auditors questioned indirect costs of xxxxxxx in the Employee Benefits –
Regular Expenses Pool, and xxxxxxx in the General & Administrative Pool as shown below.

 Indirect Category              Proposed Pool       Audit Determined       Questioned
                                    Costs              Pool Costs          Pool Costs
 Employee Benefits:                   xxxxxxx                 xxxxxxx         xxxxxxx
 Regular Expenses
 General & Administrative               xxxxxxx                xxxxxxx         xxxxxxx

Employee Benefits-Regular Expenses Pool

The DCAA auditors questioned xxxxxxx of pension costs in the FY 2006 Employee
Benefits- Regular Expenses pool because the xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxx that were not funded within six months of the close of the
fiscal year. OMB Circular A-122, Cost Principles for Non-Profit Organizations, requires
that pension “costs assigned to a given fiscal year are funded for all plan participants within
six months after the end of that year.” Pension costs are usually allowable if funded (i.e.
placed in a trust or similar pension fund) within the timeframe required by OMB Circular A-
122. xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx Therefore, although WHOI disagreed, DCAA questioned the pension costs
and adjusted the affected Employee Benefits-Regular Expenses indirect cost pool
accordingly. Additionally, in order to recover the questioned costs through a reduced
indirect rate carry forward amount, the questioned costs have been included in the carry
forward calculations as explained below in Note 2, “Determination of Carry forward
Amounts.”



                                              2
                                                     NSF OIG Audit Report No. OIG-08-6-003




General and Administrative Pool

The questioned cost of xxxxxxx in the General & Administrative Pool is comprised of four
miscellaneous expenses, as follows:

   1. DCAA questioned xxxxxxx of loss on a contract to purchase and install web purchase
      requisition prototype software. Based on OMB Circular A-122, these costs are not
      allocable to fiscal year 2006 operations because they relate to losses incurred in FY
      2002 when the contract was terminated. WHOI did not claim the losses in FY 2002
      nor did it furnish adequate evidential documentation to support that the loss is
      allocable to 2006 operations. WHOI did not agree to the finding.
   2. DCAA questioned xxxxxxx for an annual summer picnic event which represented a
      social activity for employees, students, and family members that is not allowable
      according to OMB Circular A-122. WHOI concurred with the finding.
   3. DCAA questioned xxxxxxx for Board of Trustee and corporation annual meetings/
      events with some claimed costs associated with entertainment events which were
      excessive as compared to the allowance stated in WHOI’s travel policy. WHOI did
      not agree to the questioned costs in their entirety. WHOI believes that only $7,718
      should be disallowed.
   4. DCAA questioned xxxxxxx for an international reception for which claimed costs of
      xxxxxxx related to unallowable alcoholic beverages, and xxxxxxx of unallowable
      costs associated with a social activity. WHOI did not provide a response as to
      whether it agreed or disagreed with the finding.

2. Determination of Carry Forward Amounts

DCAA reviewed WHOI’s FY 2006 incurred cost submission to determine carry forward
amounts that are included as an adjustment to the FY 2007 indirect cost rate computation.
Specifically, DCAA recommends carry forward amounts to the ONR Contracting Officer
that incorporate the questioned costs from Note 1 above reducing indirect costs billed to
WHOI’s customers in FY 2007 by xxxxxxx and specifically to NSF by approximately
xxxxxxx. WHOI utilizes a carry forward methodology to settle final indirect costs with the
government for closed fiscal years. The indirect costs incurred during an open fiscal year are
reimbursed using budgeted indirect costs. At the close of the fiscal year the actual indirect
cost amount is determined and compared to the budgeted indirect cost amount that was used
to bill the government for work performed. This comparison is used to calculate the amount
of actual indirect costs that were over or under billed for the closed fiscal year. Instead of the
government and WHOI resolving the under or over payment difference between estimated
and actual incurred costs claimed by paying the amount over or under billed, the questioned
amounts are carried forward in to the next fiscal year’s indirect cost rate calculation. Bills to
the government from WHOI reflect this adjustment in the next open fiscal year. The table
below identifies the carry forward amounts by indirect cost pool that both WHOI proposed
and DCAA has now recommended for FY 2006. The ONR contracting officer should adjust

                                                3
                                                       NSF OIG Audit Report No. OIG-08-6-003


WHOI’s FY 2007 indirect cost rates to incorporate these adjustments to the indirect cost rate
computations for January 1, 2006 through December 31, 2006.


                                                                        Proposed FY   Audit Determined
                                                                         2006 Carry    FY 2006 Carry
Claimed Over/(Under) Amounts in Indirect Costs Pools                      Forward     Forward Amounts
                                                                          Amounts
Schedule of Claimed Over/(Under) Employee Benefits – Regular            $ xxxxxxx      $   xxxxxxx
Schedule of Claimed Over/(Under) Employee Benefits - Regular Overtime   $   xxxxxxx   $    xxxxxxx
Schedule of Claimed Over/(Under) Employee Benefits – Casual             $ xxxxxxx     $    xxxxxxx
Schedule of Claimed Over/(Under) Employee Benefits - Casual Overtime    $ xxxxxxx     $    xxxxxxx
Schedule of Claimed Over/(Under) Laboratory Overhead                     $ xxxxxxx      $ xxxxxxx
Schedule of Claimed Over/(Under) General and Administrative             $ xxxxxxx     $    xxxxxxx

Schedule of Claimed Over/(Under) Employee Benefits – Regular: DCAA determined that the
claimed carry forward amount of xxxxxxx should be xxxxxxx once the questioned Employee
Benefits – Regular Expenses costs amount of xxxxxxx (see Note 1, “Results of Review of
Indirect Costs” above) is incorporated in the cost, in addition to an unsupported
miscellaneous variance of xxxxxxx

Schedule of Claimed Over/(Under) Employee Benefits - Regular Overtime: DCAA
determined that the claimed carry forward amount of xxxxxxx should be xxxxxxx once an
unsupported miscellaneous variance of xxxxxxx is incorporated in the cost.

Schedule of Claimed Over/(Under) Employee Benefits – Casual: DCAA did not take any
exception to the claimed costs.

Schedule of Claimed Over/(Under) Employee Benefits - Casual Overtime: DCAA did not
take any exception to the claimed costs.

Schedule of Claimed Over/(Under) Laboratory Overhead: DCAA determined that the
claimed carry forward amount of    xxxxxxx should be xxxxxxx once an unsupported
miscellaneous variance of xxxxxxx is incorporated in the cost.

Schedule of Claimed Over/(Under) General and Administrative: DCAA determined that the
claimed carry forward amount of xxxxxxx should be xxxxxxx once the questioned G&A
costs amount of $83,414 (see Note 1, “Results of Review of Indirect Costs” above) is
incorporated in the cost, in addition to an unsupported miscellaneous variance of xxxxxxx.

Conclusion

WHOI did not agree with most of the questioned costs which must be resolved by the ONR
Contracting Officer. We suggest that NSF DIAS coordinate with the ONR Contracting
Officer to ensure that WHOI, in future periods, records and claims pension and social activity
costs in accordance with OMB Circular A-122.

                                                  4
                                                   NSF OIG Audit Report No. OIG-08-6-003



We are providing a copy of this memorandum to the Division Director and Program Director
of OCE. The responsibility for coordination with the ONR Contracting Officer rests with
DIAS. Accordingly, we ask that no action be taken concerning the DCAA audit report’s
findings without first consulting DIAS at 703-292-8230.

OIG Transmission of the DCAA Audit Report

DCAA is responsible for the attached auditor's report on WHOI and the conclusions
expressed in the report. NSF OIG does not express any opinion on the allowability of
indirect costs, the recommendation to the ONR Contracting Officer in the determination of
carry forward amounts, or the conclusions presented in DCAA's audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have
any questions about this report, please contact Sherrye McGregor at (703) 292-5003 or
Jannifer Jenkins at (703) 292-4996.


Attachment: DCAA Audit Report No. 02171-2007N10170001 dated April 4, 2008
“Report on Audit of Woods Hole Oceanographic Institution’s Fiscal Year (FY) 2006 Final Indirect
Rate Proposal.”

cc: Julie D. Morris, Division Director, OCE
    Linda Goad, Program Director, OCE
    Karen Tiplady, Division Director, DGA




                                              5
